           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


       THE SOCIAL SECURITY
        ADMINISTRATION’S
     MONITORING OF POTENTIAL
            EMPLOYEE
   SYSTEMS SECURITY VIOLATIONS

     July 2004   A-14-04-23004




AUDIT REPORT
                                     Mission

We improve SSA programs and operations and protect them against fraud, waste, and
abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                    Authority

The Inspector General Act created independent audit and investigative units, called
the Office of Inspector General (OIG). The mission of the OIG, as spelled out in the
Act, is to:

   Conduct and supervise independent and objective audits and investigations
    relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and operations.
   Review and make recommendations regarding existing and proposed legislation
    and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                      Vision

By conducting independent and objective audits, investigations, and evaluations, we
are agents of positive change striving for continuous improvement in the Social
Security Administration's programs, operations, and management and in our own
office.
                                        SOCIAL SECURITY
MEMORANDUM

Date:   July 27, 2004                                                                 Refer To:

To:     The Commissioner

From:   Acting Inspector General

Subject: The Social Security Administration’s Monitoring of Potential Employee Systems Security
        Violations (A-14-04-23004)


        OBJECTIVE
        Our objectives were to examine the processes that the Social Security Administration
        (SSA) has in place to review potential employee systems security violations in a timely
        and proper manner and to limit SSA’s exposure to employee misuse of its systems.
        We also examined the process used to refer violations to the Office of the Inspector
        General (OIG).

        BACKGROUND

        In April 2003, we issued an early alert memorandum1 in response to the
        Commissioner’s concerns as to whether SSA had a process in place to ensure that all
        potential employee systems security violations were resolved in a timely,
        comprehensive, and consistent manner. We reported that there were limited controls in
        place to ensure that potential employee systems security violation and fraud cases were
        appropriately monitored, reviewed and reported in accordance with SSA’s policy. We
        initiated this review as part of the OIG’s efforts to assist SSA in improving its security
        and integrity review process.

        SSA stated in a March 2000 memorandum2 that in June 1998, it established a uniform
        set of Sanctions for Unauthorized Systems Access Violations (Sanctions) to secure the
        integrity and privacy of personal information contained in the Agency’s computer
        systems and to ensure that any violations of the confidentiality of its computer records
        are treated consistently. This memorandum advised SSA employees of the categories

        1
          OIG Memorandum, Early Alert: The System Security and Integrity Review Process, A-14-04-24003,
        April 11, 2003.
        2
          Memorandum, Revisions to Sanctions for Unauthorized Systems Access Violations—INFORMATION,
        March 2, 2002, (as of September 10, 2003).
Page 2 – The Commissioner

of systems security violations and the minimum recommended sanctions. Table 1
below shows those sanctions for first time offenses. Those sanctions apply for all SSA
employees who use or have access to computer systems containing personal data
about workers, claimants, beneficiaries, SSA employees or other individuals.

Table 1. Systems Security Violation Category and Sanction

          Category          First Time Offense                                Sanction
              I    Unauthorized access without                           2-day suspension
                   disclosure
                IIA     Disclosure of information to an                  2-day suspension
                        individual entitled to the information
                IIB     Disclosure of information to an                  14-day suspension
                        individual not entitled to the
                        information
                III     Unauthorized access for personal                 Removal
                        gain or with malicious intent

Annually, all employees are required to read and sign the Acknowledgment Statement
indicating that they have read and understand the sanctions.3 The Sanctions and
Acknowledgment Statement have both been incorporated into the Information Systems
Security Handbook. For additional background information, see Appendix B and for our
scope and methodology, see Appendix C.

RESULTS OF REVIEW
We found that SSA has a process in place to review potential employee systems
security violations and has taken steps to limit its exposure to employee misuse of its
systems.4 These steps include, but are not limited to:

            •    Establishment of the Sanction Penalties;
            •    Establishment of policies and procedures for reviewing potential employee
                 systems security violations in the Information Systems Security
                 Handbook5 and the Integrity Review Handbook6 (the Handbook);
            •    Development of the Comprehensive Integrity Review Process (CIRP)
                 system to alert managers of potential problems;
            •    Efforts to analyze trends in applying sanctions;

3
  Information Systems Security Handbook, Chapter 21, Sanctions for Unauthorized System Access
Violations, Attachment: Commissioner’s Memorandum, June 22, 1998.
4
  Potential employee systems security violations are defined through out this report as an instance where
an SSA Manager designates that an employee has committed a potential misuse or potential fraud and
indicates that further review is required to determine if an administrative action is appropriate.
5
  Ibid.
6
  Integrity Review Handbook, Release 3, August 2003.
Page 3 – The Commissioner

              •   Efforts to work with OIG to refer cases to the OIG; and
              •   Periodic training and reminders for the reviewers.

We requested employee systems security sanction cases from all components. Only
the Office of Operations (Operations) provided sanction cases for our review. While it is
true that Operations has the majority of employees with access to SSA’s systems, it
would seem unlikely that no employee in any other component has committed a
systems security violation since September 2000.

While we believe that the Agency, and in particular Operations, is making a concerted
effort to address employee systems security violations, there are areas within the
integrity review process that need improvement.

CERTAIN POTENTIAL SECURITY VIOLATION CASES WERE NOT REFERRED TO
THE OIG

As mandated by the Inspector General Act of 1978, the OIG is responsible for
preventing and detecting fraud and abuse in agency programs and operations.7 The
Office of Investigations (OI), within the OIG, protects the integrity of SSA’s programs by
investigating allegations of fraud, waste, and abuse.8 For this reason, such cases
should be referred to the OIG early in the administrative sanction development process
to ensure fulfillment of the OIG’s responsibilities and the effective enforcement of SSA
and OIG mission.

We reviewed 308 administratively sanctioned cases at 5 regional offices between
September 2000 and August 2003. One of the purposes for this review was to
determine how many of these cases should have been referred to the OIG. It is our
opinion that any unauthorized access of SSA’s systems and data must be considered
potential fraud until an analysis by OIG personnel determines otherwise. SSA
administrative sanctions are in addition to any criminal penalties prescribed by law.

We found that SSA, and particularly Operations, has a process in place to review
potential employee systems security violations. Although Operations has taken steps to
limit its exposure to employee misuse of its systems, we determined that all 308 cases
should have been referred to the OIG for investigation. We found that only 26 of the
308 administratively sanctioned cases were referred to the OIG. Of the 26 cases,
17 were referred to us by the Agency. The remaining nine cases were referred to us by
outside sources. One of the five regions we reviewed did not refer any cases. Although
SSA’s Program Operations Manual System provides criteria and procedures for
referring fraud cases to the OIG, we noted that the Handbook that is used to perform
integrity reviews does not clearly specify these criteria or procedures. We believe this
lack of clarity contributes to the low number of cases referred to OIG.
Some examples of sanctioned cases that should have been referred are:

7
    5 U.S.C. App. 3, Section 2.
8
    OIG Manual System, OI Special Agent Handbook, Chapter 1, Section 001.020, pages 1-2.
Page 4 – The Commissioner


    •   An employee improperly accessed over 1,400 records over a 2-month period.
        This employee committed a Category III violation and was removed from
        service.

    •   An employee accessed the records of clients for their outside tax business. This
        unauthorized access occurred for 2 years before it was discovered. This
        employee committed a Category III violation and, as stated in SSA policy,9
        should have been removed from service; however, the employee resigned upon
        reaching a settlement agreement with the Agency.

    •   An employee committed a Category I violation and received a 3-day suspension.
        After the suspension, SSA management was advised by a friend of the
        employee on two separate occasions that the employee was suspected of
        accessing the friend’s personal information. No action was taken by SSA for
        these allegations. Local law enforcement attempted to arrest the employee at
        SSA for a domestic dispute involving the friend. SSA informed the OIG of the
        attempted arrest and the OIG assisted the local law enforcement with the
        employee’s arrest 5 days later. The arrest for the domestic dispute led to an
        investigation of systems security violations by SSA and the employee was given
        a 15-day Category IIA suspension. SSA did not refer the systems security
        violation case to the OIG.

The Agency is working with OIG on the case referral procedure. Currently, the Agency
does not refer Category I or II sanction cases unless, in its opinion, potential criminal
activity has occurred. However, the OIG believes that, prior to applying administrative
actions, some level of investigation by our office is warranted for those cases
designated by SSA managers as potential misuse or potential fraud systems security
violations.

We believe that failure to refer cases designated by SSA managers as potential
systems security violations for further investigation to OIG undermines the Agency’s
ability to deal appropriately with fraud and abuse. As a result, individuals who
committed serious violations may have escaped our investigation and avoided removal
and/or prosecution. Some of these individuals may continue to work for SSA, and
remain in a position that enables additional systems abuses. Several employees, who
committed potentially criminal offenses, were allowed to retire or resign before
sanctions could be applied. These individuals may have been liable for criminal or civil
penalties if an investigation had been conducted. As a result, the employees may be
rehired by the Agency since there is no permanent record showing the prior systems
security violations; however, criminal and civil prosecution could avoid this outcome.
Additionally, criminal and civil penalties could be used to provide a strong deterrent to

9
 Information Systems Security Handbook, Chapter 21, Sanctions for Unauthorized System Access
Violations, Attachment: Deputy Commissioner for Human Resources Memorandum, page 4,
March 2, 2000.
Page 5 – The Commissioner

future potential systems security violations.

CERTAIN VIOLATIONS WERE NOT ADDRESSED TIMELY IN CONFORMANCE
WITH THE INTEGRITY REVIEW PROCESS

The Handbook requires managers to conduct reviews on a daily, weekly or monthly
basis depending on the type of review. The CIRP system generates various reports to
assist and facilitate managers in performing timely reviews. Additionally, Operations
recently provided managers with CIRP training on the integrity review process. While
the Agency is working diligently to address employee systems security violations, we
found cases where an employee’s inappropriate activities were not discovered for an
extended period of time. These cases suggest that the CIRP reviews need to be
conducted in a more timely and in-depth manner.

For example:

    •   An employee performed 50 unauthorized queries for more than 3 years and
        disclosed personal information to a co-worker who was committing credit card
        fraud. When his activity was discovered, this employee was given a 14-day
        suspension, which is a Category IIB sanction for a first-time access and
        disclosure offense.

   •    An employee performed 230 unauthorized queries of the records of friends for
        more than 3 years and disclosed some of this information to individuals not
        entitled to the information. This activity was punished as a first-time offense, and
        the employee was given a 10-workday suspension.

   •    An employee performed unauthorized queries on relatives over a 4-year period.
        Upon discovery of this activity, the employee was given a 2-day suspension,
        which is the sanction for a first-time Category I violation.

Based on documentation currently available, we were not able to determine why these
activities went on so long before they were addressed. If CIRP reviews are not
performed timely and adequately, employees’ unauthorized use of the systems may
continue undetected and will undermine the Agency’s efforts to protect the integrity and
privacy of the personal information contained in its computer systems.
Page 6 – The Commissioner

NO CENTRALIZED SYSTEM OR PROCESS EXISTS TO TRACK EMPLOYEE
SYSTEMS SECURITY VIOLATIONS

Office of Management and Budget (OMB) Circular A-123, Management Accountability
and Control, states “…management controls are the organization, policies, and
procedures used to reasonably ensure that programs and resources are protected from
waste, fraud, and mismanagement.”10 SSA does not have an agency-wide centralized
system or process to track employee systems security violations. Operations does
compile a cumulative report of all systems security violations since the Sanctions policy
was initiated in 1998. This report, however, does not include detailed information such
as the names or Social Security numbers of the individuals sanctioned. The report is a
summary of reports provided by the different regional offices and the Operations
components at Headquarters, and is used to analyze the systems violation sanction
process. To verify the numbers in the report requires accessing the individual
sanctioned case folders maintained at the 10 regional offices and Headquarters.
However, based on the information provided at each region, we were still unable to
reconcile the cumulative report to the listings of systems security violation cases
provided by the regional offices because of the lack of detailed information maintained
in the report.

For a centralized system to be effective, it should flow from first line managers to their
local security staff to a headquarters component, such as the Chief Security Officer
within the Office of the Chief Information Officer. According to the Agency’s integrity
review requirements, the appropriate security staff should be contacted for assistance
after the reviewer determines that a potential violation exists.11 We found the managers
did not always contact the appropriate security staff upon discovery of potential security
violations. As a result, the reviewers are not always appropriately counseled in
determining whether further action is necessary or whether the cases should be sent to
OIG.

Because a centralized system does not exist, managers cannot be certain whether an
employee has committed any prior systems security violations. Therefore, penalties for
repeat offenders may not be applied appropriately, particularly if the employee has
changed offices or regions. Additionally, it is difficult to properly safeguard the
information entrusted to the Agency without a centralized system. Furthermore, all
potential systems security violations should be input into such a system so they can be
tracked from discovery to resolution.

We believe the Agency’s security staff should receive all potential violation cases from
the managers. In addition, SSA should develop an agency-wide centralized system or
process with the potential violation information included by the appropriate security staff.
SSA could consider expanding the current reporting process used by Operations to the
entire Agency and ensure that all necessary information is included.
10
   OMB Circular A-123, Management Accountability and Control, Section 2. Policy, as revised
page 1, June 21, 1995.
11
   Integrity Review Handbook, Release 3, Chapter 1, Query Review, page 4, August 2003.
Page 7 – The Commissioner


SANCTION DOCUMENTATION WAS NOT LOCATED FOR ALL CASES

According to OMB, “...systematic attention to the management of government records is
an essential component of sound public resources management which ensures public
accountability.”12 An effective integrity review system requires that adequate
documentation be maintained.

We requested all 308 Official Personnel Folders (OPF) from SSA and received
documentation as follows:

       •   245 had the appropriate documentation;
       •   24 did not contain SF-50 forms corresponding to the imposed sanctions as
           required by Office of Personnel Management policy;13
       •   22 were not located for employees who were separated from service. These
           folders had been sent to the National Personnel Records Center in St. Louis,
           Missouri, 30 days after the employees separated from Federal service; and
       •   17 were not located.

SF-50s were not provided for 63 of the 308 cases reviewed. These forms are placed in
the OPF as a permanent record of actions for promotion, reassignment, suspension,
and return to duty. Without this documentation, SSA has no permanent record showing
that these employees had been previously sanctioned.

According to the records management regulations developed by the National Archives
and Records Administration, Adverse Action Files (AAF) should be destroyed no sooner
than 4 years, but no later than 7 years after the case is closed.14 An AAF is compiled
when agencies impose an adverse or performance-based action against an employee
and contains all the information related to the suspension or removal. OPFs and AAFs
are maintained by the personnel department within the Office of Human Resources.
We requested all 308 AAFs from the Agency, but 10 could not be located. Without
proper documentation from the AAFs, the Agency does not have the evidence needed
for due process.




12
   OMB Circular A-130, Management of Federal Information Resources, Revised (Transmittal
Memorandum No. 4), section 7.h., page 5, November 30, 2000.
13
   Office of Personnel Management Operating Manual, The Guide to Processing Personnel Actions,
April 6, 2003, section 1-3b(3), (as of March 9, 2004).
14
   National Archives and Records Administration, General Records Schedule 1 (Transmittal
Memorandum No. 11), Civilian Personnel Records, Section 30.b, December 2003 (as of March 9, 2004).
Page 8 – The Commissioner

CONCLUSIONS AND RECOMMENDATIONS
SSA, and particularly Operations, is proactive in its efforts to prevent and uncover
potential employee systems security violations. This includes the establishment of
policies and procedures, the development of the CIRP system, efforts to work with the
OIG, and refresher training for the reviewers. While the Agency has integrity review
policies and procedures in place, there are areas within the integrity review process that
require improvement.

To strengthen SSA’s integrity review process and reduce its vulnerability to employee
systems security violations, we recommend SSA:

1. Establish policies and procedures on retaining all supporting documentation for
   potential misuse or potential fraud employee systems security violations, as
   identified by SSA managers as needing further investigation, so that resolutions are
   accessible and verifiable.

2. Maintain supporting documentation for all potential misuse or potential fraud
   employee systems security violations, as identified by SSA managers as needing
   further investigation, to ensure appropriate and consistent sanctions are applied
   within the Agency.

3. Provide OIG with periodic access to the potential misuse or potential fraud employee
   systems security violations, as identified by SSA managers as needing further
   investigation, to assess the information for potential criminal activity.

4. Continue to ensure all integrity reviews are conducted in a more timely and in-depth
   manner.

AGENCY COMMENTS AND OIG RESPONSE
In response to our draft report, SSA agreed with our recommendations and is in the
process of implementing them. The Agency raised several points as other matters,
which we have taken under consideration and incorporated where appropriate. We
commend SSA for its efforts to protect the valuable information entrusted to the Agency
and maintain the integrity of its workforce. See Appendix E for the text of SSA’s
comments.




                                             S
                                             Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Background

APPENDIX C – Scope and Methodology

APPENDIX D – Sanction Cases Reviewed for Systems Security Violations

APPENDIX E – Agency Comments

APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                             Appendix A
Acronyms
AAF          Adverse Action File
Act          The Social Security Act
CIRP         Comprehensive Integrity Review Process
CSI          Center for Security and Integrity
DSSPI        Division of Systems Security and Program Integrity
Handbook     Integrity Review Handbook
OI           Office of Investigations
OIG          Office of the Inspector General
OMB          Office of Management and Budget
Operations   Office of Operations
OPF          Official Personnel Folder
POMS         Program Operations Manual System
Sanctions    Sanctions for Unauthorized Systems Access Violations
SF-50        Notification of Personnel Action Form
SSA          Social Security Administration
SSN          Social Security Number
U.S.C.       United States Code
                                                                           Appendix B
Background
The Privacy Act of 1974,1 the Computer Fraud and Abuse Act,2 the Computer Security
Act of 1987,3 the Office of Management and Budget Circulars A-123 and A-130,
Appendix III, plus many other laws, guidelines and memoranda provide a body of
regulations requiring the proper security of all automated information systems
resources, including data.

The Privacy Act of 1974 prohibits the disclosure of personal information about an
individual without prior written consent. Section 1106 of the Social Security Act (Act)4 in
accordance with the Computer Security Act of 1987 focuses on protecting the
confidentiality of information in Government records. This section of the Act states that
no file, record, report, paper, or other information obtained at any time from any person
may be disclosed except as provided by regulations from the Act or other applicable
laws.

In June 1998, the Social Security Administration (SSA) established a uniform set of
Sanctions for Unauthorized Systems Access Violations5 (Sanctions) to secure the
integrity and privacy of the personal information contained in the Agency’s computer
systems and to ensure that any violations of the confidentiality of its computer records
are treated consistently.

Managers are the primary lines of defense against employee systems security
violations. SSA’s Integrity Review Handbook outlines the procedures for managers
when they conduct integrity reviews. In an effort to prevent and uncover potential
employee systems security violations, SSA developed the Comprehensive Integrity
Review Process (CIRP), a mainframe and Intranet based management tool to monitor
specific SSA systems activity for potential fraud or misuse by employees. CIRP uses
predetermined criteria to select certain queries input by employees and generates
reports for review by management.

The manager determines whether the queries are considered: 1) No Problem;
2) Potential Violation – Misuse; 3) Potential Violation – Fraud; or 4) Not-Certified –
Investigation Pending. CIRP reviews must be completed and certified in a certain
period of time depending on the type of review. For example, CIRP query reviews need
to be completed and certified by the end of each month. If a potential security violation
(misuse or fraud) is identified, the appropriate security staff6 must be contacted to
1
  5 United States Code (U.S.C.) 552a (b).
2
  18 U.S.C § 1030.
3
  Public Law 100-235.
4
  42 U.S.C. § 1306.
5
  Information Systems Security Handbook, Chapter 21, Attachment: Commissioner’s Memorandum,
June 22, 1998.
6
  Integrity Review Handbook, Release 3, Chapter 1, Query Review, page 4, August 2003.


                                              B-1
advise managers on the appropriate action to be taken. While the information in the
CIRP query system is retained for a short period of time, the history of employees is
maintained in the Audit Trail System for 7 years. The Audit Trail System is designed to
provide SSA security officers with the capability to monitor SSA data entry activities
nationwide.

PRIOR REVIEWS

•   Analysis of Social Security Number Misuse Allegations Made to the Social Security
    Administration’s Fraud Hotline (A-15-99-92019) dated August 1999. This report
    identified the different types of Social Security number (SSN) misuse allegations and
    estimated the number of occurrences for each category during the period of
    October 1, 1997 through March 13, 1999.

•   Referring Potentially Fraudulent Enumeration Applications to the Office of the
    Inspector General (A-14-03-23052) dated March 2003. This report discussed the
    extent that SSA referred potentially fraudulent SSN applications to the OIG for
    investigation.

•   Management Advisory Report: Sensitive Data Accessible on the Social Security
    Administration Intranet (A-14-04-24036) dated September 2003. This report
    identified sensitive personal information of OIG, SSA, State and contractor
    employees and beneficiaries improperly accessible on the Agency’s Intranet.

We are currently performing audits of SSA’s regional office procedures for addressing
employee-related allegations in each of SSA’s 10 regions. These audits include
employee-related allegations of all types except systems security violations.




                                           B-2
                                                                      Appendix C
Scope and Methodology
Our objectives were to examine the processes that the Social Security Administration
(SSA) has in place to review potential employee systems security violations in a timely
and proper manner and to limit the Agency’s exposure to employee misuse of its
systems. We also examined the process used to refer violations to the Office of the
Inspector General (OIG). Our review was based on the understanding that the Agency
provided us with all the systems security violation cases for the regions selected and the
period reviewed. Our analysis was limited by our reliance on the Agency’s decision on
whether a systems access was unauthorized and in violation of SSA’s policies.

To meet our objectives, we examined reports of potential misuse or potential fraud
employee systems security violations, as designated by SSA managers needing further
review for all SSA components. We requested systems security violation sanction
cases from all components Only the Office of Operations (Operations) provided
sanction cases for review. They provided all the systems security violation cases that
occurred between September 2000 and August 2003 in five regions (New York,
Philadelphia, Dallas, Atlanta and San Francisco) and at SSA Headquarters. Other SSA
Headquarter Offices provided information on potential systems security violations but
had no actual sanction cases during that timeframe. While it is true that Operations has
most of the employees with access to SSA’s systems, it would seem unlikely that no
employee in any other component has committed a systems security violation since
2000.

We received 308 cases from the 5 regions listed. For each case, we examined the
Official Personnel Folder and the Adverse Action File to determine whether the Agency
applied its sanction policy with consistency and timeliness. We compared all of these
cases to the Office of Investigations’ Allegation and Case Investigation System to
determine whether these cases were referred to OIG for investigation. We confirmed
the Social Security number or the name, regional location, and the time period of the
offense. Additionally, we verified these cases with the five respective Centers for
Security and Integrity (CSI) offices. We also:

1. Reviewed the following criteria:

         Office of Management and Budget (OMB) Circular A-123, Management
          Accountability and Control;
         OMB Circular A-130, Management of Federal Information Resources;
         Office of Personnel Management and National Archives and Records
          Administration’s guidance on personnel records;
         SSA’s Information Systems Security Handbook;
         SSA’s Program Operations Manual System; and
         SSA’s Integrity Review Handbook.



                                           C-1
2. Interviewed representatives from SSA’s:

          Operations, Office of Public Service and Operations Support, and Division of
           Systems Security and Program Integrity (DSSPI). DSSPI monitors integrity
           reviews in the regions and the processing centers to ensure the reviews are
           performed timely and consistently;
          Office of Systems Security Operations Management, which has national
           oversight of the integrity review process;
          Office of Systems, Integrity Systems Development Branch, to further
           understand the Comprehensive Integrity Review Process;
          Baltimore District Office to understand how SSA’s policy and procedures were
           implemented in the local offices;
          Office of Central Operations CSI staff to understand the CSI’s functions and
           role in the integrity review process; and
          Office of Labor Management and Employee Relations staff to understand the
           application of administrative sanctions in respect to systems security
           violations.

3. Visited the:

          Five regional offices listed previously, and
          The Baltimore Downtown District Office.

We reviewed the integrity review process for employee systems security violations for
the entire Agency. We performed our field work in SSA Headquarters and selected
regions from April 2003 to March 2004. We determined that the data used in this report
was sufficiently reliable to meet our audit objectives and intended use of the data. We
determined that our use of this data should not lead to an incorrect or unintentional
message. We conducted our review in accordance with generally accepted government
auditing standards.




                                            C-2
                                                                      Appendix D
Sanction Cases Reviewed for Systems Security
Violations

                                      Cases Referred to OIG by SSA
 Social Security       Number of
 Administration          Cases                     Offenses
    Region             Reviewed
                                            Cat.    Cat.
                                   Cat. I   IIA     IIB    Cat. III    Total

New York                  76         0       0        0       0         0


Philadelphia              72         1       0        1       2         4


Atlanta                   67         0       1        0       7         8


Dallas                    45         1       1        0       0         2


San Francisco             48         1       0        0       2         3


               Total      308        3       2        1       11        17
                  Appendix E
Agency Comments
                                       SOCIAL SECURITY


MEMORANDUM                                                                      106-24-1067


Date:      July 8, 2004                                                         Refer To: S1J-3

To:        Patrick P. O’Carroll, Jr.
           Acting Inspector General

From:      Larry W. Dye /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, “The Social Security Administration’s
           Monitoring of Potential Employee System Security Violations” (A-14-04-23004)—
           INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report are
           attached.

           Please contact me if you have any questions. Staff questions may be referred to Candace
           Skurnik, Director of the Audit Management and Liaison Staff, at extension 54636.

           Attachment




                                                        E-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL’S (OIG) DRAFT REPORT,
“THE SOCIAL SECURITY ADMINISTRATION’S MONITORING OF POTENTIAL
EMPLOYEE SYSTEM SECURITY VIOLATIONS” (A-14-04-23004)

Thank you for the opportunity to provide comments on this OIG draft report. We appreciate the
report’s recognition of the numerous processes in place at SSA for reviewing potential employee
systems security violations, as well as the steps the Agency has taken to limit exposure to any
violations. The actions cited in our comments demonstrate our ongoing commitment to making
improvements in this important area, including continued cooperation with the OIG to address
the issues raised in this OIG report.

Recommendation 1

Establish policies and procedures on retaining all supporting documentation for potential misuse
or potential fraud employee systems security violations, as identified by SSA managers as
needing further investigation, so that resolutions are accessible and verifiable.

Recommendation 2

Maintain supporting documentation for all potential misuse or potential fraud employee systems
security violations, as identified by SSA managers as needing further investigation, to ensure
appropriate and consistent sanctions are applied within the Agency.

Comment

We agree with the intent of recommendations 1 and 2, and we believe our present policies and
procedures require reasonable retention of documentation necessary for ensuring effective
resolution of and consistent application of sanctions for such cases. We will issue reminders as
needed to management concerning these policies and procedures to assure that adequate
documentation is maintained.

Recommendation 3

Provide OIG with periodic access to the potential misuse or potential fraud employee systems
security violations, as identified by SSA managers as needing further investigation, to assess the
information for potential criminal activity.

Comment

We agree with this recommendation. Allowing OIG access to documentation concerning
potential violations will allow OIG to assess the potential for criminal activity without unduly
delaying local management’s review of potential violations.

Currently, the SSA Office of Operations refers the cases listed below to OIG for review for
possible investigation for criminal activity before any administrative action is taken on potential
violation cases:

                                                E-2
   -   All Category III cases (unauthorized access for personal gain or with
       malicious intent);
   -   All Category I cases (unauthorized access without disclosure); and
   -   Category IIA and Category IIB cases (unauthorized access with disclosure), where there
       exists, in management’s opinion, possible criminal activity or intent.

The Agency will provide OIG’s Office of Investigations (OI) six months of data for those cases
where administrative action has already occurred. We have provided OI the requested
information for the period January 2004 through March 2004. We will provide information for
April 2004 through June 2004 in July 2004. Following review by OI, the SSA Office of
Operations and OIG will reevaluate the referral process to determine if any modifications are
necessary. We will also consider whether all potential sanctions cases should be referred to OIG
prior to taking administrative action.

Recommendation 4

Continue to ensure all integrity reviews are conducted in a more timely and in-depth manner.

Comment

We agree with this recommendation, and recognize the importance of timely and thorough
investigation and resolution of Comprehensive Integrity Review Process (CIRP) reviews. We
currently devote significant amounts of time and resources to monitor accurate and timely
completion of CIRP alerts.

[In addition to the items listed above, SSA also provided technical comments which
have been addressed, where appropriate, in this report.]




                                              E-3
                                                                       Appendix F
OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kitt Winter, Director, Data Analysis and Technical Audits Division (410) 965-9702

   Phil Rogofsky, Audit Manager, Network Security and Telecommunications Branch
   (410) 965-719

Acknowledgments

In addition to those named above:

   Pat Kennedy, Audit Manager, Mainframe Controls and Advanced Techniques

   Mary Ellen Fleischman, Senior Program Analyst

   Harold Hunter, Senior Auditor

   Greg Thompson, Senior Auditor

   Grace Chi, Auditor

For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-14-04-23004.
                           DISTRIBUTION SCHEDULE


Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                  Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
